OIG Audit Report GR-60-09-006

Office on Violence Against Women, Safe Haven Grants Awarded to the City of Grand Island, Nebraska
Audit Report GR-60-09-006
December 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector  General, Audit Division, has completed an audit of the Safe Havens: Supervised Visitation and Safe  Exchange Grant Program (Program), Grant Nos. 2003-CW-BX-0026 in the  amount of $119,893, and 2005-CW-AX-0013 in the amount of $502,648, awarded by  the Office on Violence  Against Women (OVW) to Grand    Island, Nebraska.  The purpose of the awards were to provide an opportunity for communities  to support the supervised visitation and safe exchange of children in  situations involving domestic violence, dating violence, child abuse, sexual  assault, or stalking.  The Program has  been planned and implemented through the Heartland Family Visitation  Center (HFVC). 
Since 1995, OVW has provided national leadership in developing the nation's capacity to  reduce violence against women through the implementation of the Violence Against Women Act.  OVW administers  financial and technical assistance to communities across the country that are  developing programs, policies, and practices aimed at ending domestic violence,  dating violence, sexual assault, and stalking.
Studies have  shown that the risk of violence is often greater for victims of domestic  violence and their children after separation from an abusive situation.1 Even after separation, batterers often use  visitation and the exchange of children as an opportunity to inflict additional  emotional, physical, and/or psychological abuse on victims and their  children.  Visitation and exchange  services provided through the Program should reflect a clear understanding of  the dynamics of domestic violence, dating violence, sexual assault and  stalking; the impact of domestic violence on children; and the importance of  holding offenders accountable for their actions. 
The purpose of this audit was to  determine whether reimbursements claimed for costs under the grants were allowable,  supported, and in accordance with applicable laws, regulations, guidelines, and  terms and conditions of the grant, and to determine program performance and  accomplishments.  As a result, we reviewed activities in the  following areas:  (1) internal control environment; (2) drawdowns; (3) grant expenditures, including subgrantee and personnel costs; (4) budget  management and control; (5) Financial Status Reports (FSRs) and Categorical  Assistance Progress Reports (progress reports); (6)grant requirements;  and (7) program performance and accomplishments.   We determined that matching costs, indirect  costs, and program income were not applicable to this grant. 
As shown in table 1 below, Grand Island was awarded a  total of $622,541 to implement the Program.
TABLE 1.  SAFE HAVENS: SUPERVISED VISITATION AND SAFE 
  EXCHANGE PROGRAM GRANTS  ISSUED TO GRAND ISLAND


AWARD
START DATE
END DATE
AMOUNT


2003-CW-BX-0026
10/01/03
12/31/05
$119,893


2005-CW-AX-0013
09/01/05
08/31/08
$502,648


Total:
$622,541


Source: Office of Justice  Programs
We examined Grand Island’s accounting records, payroll records, financial and progress reports, and  operating policies and procedures and found:

expenditures did not support drawdowns resulting in unsupported costs,
one transaction for contracted construction which is unallowable based on the OVW grant solicitation,
expenditures that exceeded approved budgeted categories, and
the Program  faces challenges toward becoming independently sustainable.

These items are discussed in detail in the Findings and  Recommendations section of the report.   Our audit objectives, scope, and methodology are discussed in Appendix  I.


 

Footnotes

Jaffe, P.G., “Children of Domestic  Violence: Special Challenges in Custody and Visitation Dispute Resolution.” In  J. Carter, C. Heisler, & M. Runner (Eds.), Domestic Violence and Children: Resolving Custody and Visitation Disputes, A  National Judicial Curriculum (San    Francisco: Family Violence Prevention Fund), pp.  22-30.





 




Return to OIG Home Page